LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

June 15, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-1443:

CANDACE AGUILERA, AKA CANDACE SGAGGIO V. CITY OF COLORADO
SPRINGS, COLORADO

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that Respondent Robert
Mitchell's Brief in Opposition to Petition for Writ of Certiorari referenced above
contains 2,249 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of June 2021.

